No.

INTHE
SUPREME COURT OF THE UNITED STATES

GREGORYC. DACANAY,
Petitionen
v.

PEOPLE OF THE STATE OF ILLINOIS,
Eespondent.
On Petition For Writ of Certiorari
To The Supreme Court of Illinois

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(D, I hereby certify that the Petition for
Writ of Certiorari contains 5,233 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(0.

I, a member of the Bar of this Court, declare under penalty ofperjury that the
foregoing statement is true and correct.
Executed on the 20fr day ofApril, 2021.

SALVATORE C. MIGLO
Counsel of Record
SALVATORE C. MIGLORE & ASSOCIATES
300 S. CarltonAvenue, Suite 130
Wheaton, IL 60187
Phone: (630) 933-8400
E'mail : sal@lincolnlawg"oup.com

